<html>
<title> - BENEFICIAL OR CRITICAL? THE HEIGHTENED NEED FOR TELEWORK OPPORTUNITIES IN THE POST-9/11 WORLD</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





BENEFICIAL OR CRITICAL? THE HEIGHTENED NEED FOR TELEWORK OPPORTUNITIES 
                         IN THE POST-9/11 WORLD

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 8, 2004

                               __________

                           Serial No. 108-210

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
96-411                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
NATHAN DEAL, Georgia                 C.A. ``DUTCH'' RUPPERSBERGER, 
CANDICE S. MILLER, Michigan              Maryland
TIM MURPHY, Pennsylvania             ELEANOR HOLMES NORTON, District of 
MICHAEL R. TURNER, Ohio                  Columbia
JOHN R. CARTER, Texas                JIM COOPER, Tennessee
MARSHA BLACKBURN, Tennessee          BETTY McCOLLUM, Minnesota
PATRICK J. TIBERI, Ohio                          ------
KATHERINE HARRIS, Florida            BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 8, 2004.....................................     1
Statement of:
    Gardiner, Pamela J., Acting Inspector General for Tax 
      Administration, Department of the Treasury; Scott J. 
      Cameron, Deputy Assistant Secretary, Performance, 
      Accountability, and Human Resources, Department of the 
      Interior; and J. Christopher Mihm, Director, Strategic 
      Issues, General Accounting Office..........................    43
    Kane, James A., president and chief executive officer, 
      Software Productivity Consortium; Steve DuMont, vice 
      president, Internet Business Solutions Group, Cisco 
      Systems, Inc.; Eric Richert, vice president, Iwork 
      Solutions Group, Sun Microsystems; and Carol Goldberg, 
      former telework program manager, Fairfax County, VA, 
      government.................................................    66
    Perry, Stephen, Administrator, General Services 
      Administration; and Kay Coles James, Director, Office of 
      Personnel Management.......................................    17
Letters, statements, etc., submitted for the record by:
    Cameron, Scott J., Deputy Assistant Secretary, Performance, 
      Accountability, and Human Resources, Department of the 
      Interior, prepared statement of............................    51
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............   134
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia, prepared statement of...................     4
    Davis, Hon. Danny K., a Representative in Congress from the 
      State of Illinois, prepared statement of...................    15
    DuMont, Steve, vice president, Internet Business Solutions 
      Group, Cisco Systems, Inc., prepared statement of..........    96
    Gardiner, Pamela J., Acting Inspector General for Tax 
      Administration, Department of the Treasury, prepared 
      statement of...............................................    45
    Goldberg, Carol, former telework program manager, Fairfax 
      County, VA, government, prepared statement of..............   119
    James, Kay Coles, Director, Office of Personnel Management, 
      prepared statement of......................................    27
    Kane, James A., president and chief executive officer, 
      Software Productivity Consortium, prepared statement of....    68
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, prepared statement of...................   138
    Mihm, J. Christopher, Director, Strategic Issues, General 
      Accounting Office, prepared statement of...................    55
    Perry, Stephen, Administrator, General Services 
      Administration, prepared statement of......................    20
    Richert, Eric, vice president, Iwork Solutions Group, Sun 
      Microsystems, prepared statement of........................   108
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, prepared statement of.................     8
    Wolf, Hon. Frank, a Representative in Congress from the State 
      of Virginia, prepared statement of.........................    11

 
BENEFICIAL OR CRITICAL? THE HEIGHTENED NEED FOR TELEWORK OPPORTUNITIES 
                         IN THE POST-9/11 WORLD

                              ----------                              


                         THURSDAY, JULY 8, 2004

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:27 a.m., in 
room 2154, Rayburn House Office Building, Hon. Tom Davis 
(chairman of the committee) presiding.
    Present: Representatives Tom Davis of Virginia, Schrock, 
Blackburn, Waxman, Maloney, Cummings, Kucinich, Davis of 
Illinois, Tierney, Watson, Van Hollen, Ruppersberger, and 
Norton.
    Also present: Representative Wolf.
    Staff present: David Marin, deputy staff director and 
communications director; Keith Ausbrook, chief counsel; Jim 
Moore, counsel; Robert Borden, counsel and parliamentarian; 
Drew Crockett, deputy director of communications; Jaime Hjort, 
Michael Layman, and Victoria Proctor, professional staff 
members; Teresa Austin, chief clerk; Sarah Dorsie, deputy 
clerk; Allyson Blandford, office manager; Corinne Zaccagnini, 
chief information officer; Phil Barnett, minority staff 
director; Kristin Amerling, minority deputy chief counsel; 
Christopher Lu, minority deputy chief counsel; Tania Shand, 
minority professional staff mmember; Earley Green, minority 
chief clerk; and Jean Gosa, minority assistant clerk.
    Chairman Tom Davis. The committee will come to order.
    Good morning, and I want to welcome everybody to today's 
oversight hearing on the Status of Telework Programs and 
Policies in the Federal Government. We are here to determine 
why many Federal supervisors have been slow to implement 
telework across all levels of the Government work force. For 
years now, many of us have recognized that telework offers 
significant benefits to managers, employees, and society. More 
recently, and perhaps more importantly, we now realize that 
telework needs to be an essential component of any continuity 
of operations plan. Something we once considered advantageous 
and beneficial has evolved into a cornerstone of emergency 
preparedness.
    The innovations of the information age, laptop computers, 
broadband Internet service, blackberries and so forth, continue 
to make location less relevant in a working world. Telework 
capitalizes on these advances, offering a broad range of 
benefits to employers and employees, and the public.
    I have long argued that because of these benefits, we need 
to be encouraging telework wherever possible across the 
country. Expanding telecommuting opportunities reduces traffic 
congestion and air pollution; it promotes a productive work 
force and increases employee morale and quality of life, often 
resulting in higher rates of worker retention; it is pro-
family; it provides a whole new arena of opportunities for 
people with disabilities; and it is a great way for retirees to 
get the part-time employment many of them are working for.
    Unfortunately, logic doesn't always prevail in Washington. 
Politics is like a wheelbarrow: nothing happens until you start 
pushing. September 11 gave us a new reason to push for 
telework.
    The war on terror makes the ability to work at offsite 
locations more than an attractive option for employees and 
employers; it is now an imperative. The ever-present threat of 
terrorist attacks on U.S. soil should compel those in authority 
to incorporate telework into any disaster contingency plans. 
Here in the Washington area, we know that, in fact, many 
occurrences can interrupt government operations, from 
snowstorms and hurricanes, to anthrax mailings and Tractor Man. 
These disruptions are very costly to people all over the 
country and the world that rely on a functioning Federal 
Government every day.
    Today's hearing is set against the backdrop of Section 359 
of Public Law 106-346. This law, authored by one of our 
distinguished guests today, Congressman Frank Wolf, requires 
each executive branch agency to establish a telework policy 
``under which eligible employees may participate in 
telecommuting to the maximum extent possible without 
diminishing employee performance.'' The law made the Office of 
Personnel Management responsible for ensuring that the 
requirements were applied to 25 percent of the Federal work 
force beginning in April 2001 and to an additional 25 percent 
each subsequent year. That means, theoretically, that 100 
percent of the Federal work force is supposed to be eligible to 
telework by next April.
    But I am sorry to report we are not there yet.
    According to OPM data, only 102,921 employees of 751,844 
who were eligible had the capacity to telework in 2003, less 
than 14 percent. More unsettling is the fact that agencies are 
defining for themselves what employees they consider 
``eligible.'' Part of our work today will be to determine 
whether a Government-wide definition of ``eligible employees'' 
would be appropriate and constructive.
    We have long understood the barriers that prevent greater 
telework implementation. Many managers remain unenthusiastic 
about allowing their employees to be out of their sight during 
the workdays. Some worry telework will worsen employee-
management relations; others worry employees may abuse the 
policy. Telework requires a great deal of management confidence 
and a great deal of employee responsibility. Our biggest 
challenge as we move forward may simply be changing 
organizational attitudes about the possibilities technology 
affords managers and employees in the contemporary workplace.
    It is important to note there are bright signs on the 
horizon. As the government's telework coordinators, OPM and the 
General Services Administration have recently directed several 
efforts to boost telework programs.
    Among its many activities in the last several weeks, OPM 
has hosted special training sessions for employees from nine 
agencies with extremely low telework participation; hosted 
emergency preparedness training forums for agency managers that 
emphasized integration of telework into continuity of 
operations plans; and Director Kay Coles James personally 
guided agency representatives through Fairfax Telework Center 
in suburban Virginia for a first-hand look at the operations of 
an offsite telework hub. I am also aware of telework plans 
being crafted for Boston and New York, so that the convention 
chaos doesn't force Federal agencies in those places to lose 
even an hour of productivity.
    In addition, GSA has provided agencies with the needed 
guidance, technical assistance, and oversight of the 
establishment and operation of telework programs. And, most 
notably, GSA recently collaborated with the Department of 
Homeland Security to develop a continuity of operations plan 
that emphasizes telework.
    I know firsthand how telework can benefit a workplace. Ann 
Rust of my district staff currently teleworks 4 days a week at 
the George Mason University telework center in Herndon, VA. The 
staff director of this committee, Melissa Wojciak, teleworked 
after both of her children were born, giving a 21st century 
definition to the term ``maternity leave.''
    The bottom line is why do Federal employees have to commute 
to and from their office each day to perform work that often 
can be done equally well, or even more efficiently, at a more 
convenient location? Our frustration with the slow pace of 
implementation is peaking. That is why we will hear from 
Congressman Danny Davis today about his proposal to establish a 
demonstration project to evaluate Federal employees' ability to 
perform essential and non-essential operations in the event 
that employees are not able to work in their official duty 
stations.
    More directly, that is why we are seeing language like that 
added by Mr. Wolf to the CJS appropriations bill, threatening 
to withhold funding for those agencies under his jurisdiction 
that underperform in this area. Unfortunately, after all these 
years during which Federal agencies have not followed the law, 
I fear this is the type of action required to get the 
wheelbarrow moving. I am therefore prepared to follow my 
colleague Frank Wolf's lead and work to implement similar 
language that would apply to all Federal agencies. Let the 
message be clear: we are serious and we are ready to help OPM 
and GSA to hold agencies' feet to the fire.
    We have three panels of witnesses here today who will help 
us better understand where we have been and where we are going. 
On the first panel we are pleased to have the distinguished 
Administrator of the GSA, Stephen Perry, and the equally 
distinguished Director of OPM, Kay Coles James.
    Thank you both for being with us today.
    [The prepared statement of Chairman Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T6411.001
    
    [GRAPHIC] [TIFF OMITTED] T6411.002
    
    [GRAPHIC] [TIFF OMITTED] T6411.003
    
    Chairman Tom Davis. I now recognize the distinguished 
ranking member, Mr. Waxman.
    Mr. Waxman. Thank you very much, Mr. Chairman. I would like 
to thank you for holding this hearing, and I also want to 
welcome the distinguished group of witnesses that we have 
testifying.
    Today's hearing focuses on the Federal Government's effort 
to increase the use of telecommuting. According to experts, 
telework can help the Government in its recruitment and 
retention of employees, while also reducing the need for office 
space. Telework can also have a major impact on traffic 
congestion, an issue of great importance in my own hometown, 
Los Angeles.
    For employees, telework can allow them to structure their 
work schedules around the need to care for elderly parents or 
young children. Telework can also provide disabled employees 
with greater access to Federal employment.
    Just as importantly, greater use of telework can allow the 
Federal Government to function in the event of an emergency, 
whether it be a fire, a terrorist attack, God forbid, or a 
natural disaster.
    In recent years, for example, congressional offices have 
been closed because of anthrax contamination and Hurricane 
Isabel. Had there been a great use of telework, there would 
have been much less disruption in our ability to serve our 
constituents.
    Representative Danny Davis, the ranking member of the Civil 
Service Subcommittee, is working on a bill to ensure that 
telework is better integrated into emergency planning, and I 
know well of the leadership that Representative Frank Wolf has 
been providing on this issue as well. I fully support them in 
their efforts, and I hope the committee will move quickly on 
legislation.
    [The prepared statement of Hon. Henry A. Waxman follows:]

    [GRAPHIC] [TIFF OMITTED] T6411.114
    
    [GRAPHIC] [TIFF OMITTED] T6411.115
    
    Chairman Tom Davis. Thank you. And I would like to ask the 
committee's permission. We have the distinguished chairman of 
the CJS Appropriations Subcommittee. He has to go to the floor 
to manage his bill so he can get out of here at a decent hour 
for the time tonight, but he has been a leader in this area 
and, Frank Wolf, we are very proud to have you here today to 
add your voice, and thank you for the leadership you have 
taken. I recognize you if you would like to say anything.
    Mr. Wolf. Thank you, Chairman Davis. I appreciate it. And I 
want to welcome the panel. I will be 30 seconds.
    I think this is an important issue. It is a continuity of 
Government issues because we all went through what we went 
through on September 11, and we saw the earthquakes and 
problems out in California. It is an environmental issue. It is 
a traffic issue, as you know, living in this region. It is a 
productivity issue, because the studies show the people that 
telecommute or telework are very, very productive with the new 
modern technology that is available. It is also a family value 
issue. There is nothing magic about strapping yourself into a 
metal box and driving 35 or 45 miles, perhaps sitting in 
traffic maybe 2 hours. There is nothing uncommon for people in 
this region to get up at 4:30 or 5 a.m., to get into work, and 
not to get home until 6 or 6:30 p.m. No opportunities to be 
active in Boy Scouts, their church, Little League, to be with 
the family. So it is a family value issue.
    And for that I would hope--and I appreciate Chairman Davis 
having this hearing--that the administration can take this. I 
know the problem isn't with the workers, because they want it. 
I am not suggesting the problem is with OPM, either. But the 
problem appears to be at the leadership level. Some say mid-
level, but at the leadership level, whereby the word is not 
getting out. So I appreciate Mr. Davis having this. I hope some 
really good things. This has been the law now for a long, long 
time; yet it is not being complied with, and perhaps this 
hearing will be the spur to really make a difference.
    So, Tom, thanks for having the hearing, and we look forward 
to really good things whereby none of us in this region or any 
other people will be called to say I work for the Federal 
Government, I want to telework, but my agency won't let me. So 
thanks for having the hearing.
    [The prepared statement of Hon. Frank Wolf follows:]

    [GRAPHIC] [TIFF OMITTED] T6411.004
    
    [GRAPHIC] [TIFF OMITTED] T6411.005
    
    [GRAPHIC] [TIFF OMITTED] T6411.006
    
    Chairman Tom Davis. Well, thank you, Mr. Wolf, and thank 
you for your leadership.
    Any opening statements over on this side? Mr. Davis, yes, 
thank you.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman.
    I will not read the statement, but I would just indicate 
that this is indeed a very serious matter and it is a serious 
issue, and I think that we have great opportunity to 
demonstrate the capacity that exists to address it. Therefore, 
I will be introducing today a bill that is designed to enhance 
the ability of Federal agencies to function using telecommuting 
systems that obviously we are developing and learning about in 
the case of an emergency. So I look forward to not only the 
introduction of that legislation, but further discussion of it, 
and hope that out of all of this we will be better prepared 
should we experience any emergency that arises, and I think we 
can rise to meet the occasion.
    [The prepared statement of Hon. Danny K. Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T6411.007
    
    [GRAPHIC] [TIFF OMITTED] T6411.008
    
    Chairman Tom Davis. Thank you very much.
    Any other opening statements? If not, we have a very 
distinguished first panel that is part of the solution. We 
solute both of you for your leadership in this area, the 
Honorable Stephen Perry, Administrator of the GSA, and Kay 
Coles James of OPM. You know it is our policy we swear you in, 
so if you would just raise your right hands with me.
    [Witnesses sworn.]
    Chairman Tom Davis. Thank you both for being here.
    Steve, we will start with you and then go to Kay, and then 
open up for questions.

 STATEMENTS OF STEPHEN PERRY, ADMINISTRATOR, GENERAL SERVICES 
   ADMINISTRATION; AND KAY COLES JAMES, DIRECTOR, OFFICE OF 
                      PERSONNEL MANAGEMENT

    Mr. Perry. Good morning, Mr. Chairman, members of the 
committee, Congressman Wolf. Thank you for the opportunity to 
discuss the status of telework in the Federal workplace.
    Along with the Office of Personnel Management under the 
capable leadership of Kay Coles James, GSA is a lead agency for 
promoting, supporting, and developing telework. According to 
statute, GSA's specific telework role is to provide guidance, 
assistance, and oversight regarding the establishment of the 
operation of alternative workplace arrangements, and to acquire 
space and equipment for telecommuting centers.
    In working with other Federal agencies, GSA promotes 
telework as a key component of our mission to assist agencies 
in providing a high performance, high-quality workplace.
    In 2001, we presented testimony to this committee on our 
telework activities, and today I am pleased to highlight some 
of the results achieved, as well as to discuss some of the 
activities which we have undertaken in effort to make more 
progress in increasing our telework participation.
    I will mention a few examples of the activities that we 
have undertaken in our statutory role first. The first of those 
is that we continue to increase awareness. In order to do that, 
we have established a very active outreach technical assistance 
and communications program that provides up-to-date information 
on telework issues. Awareness building is one of the keys to 
the solution of this matter. We recently released a telework 
video targeted to Federal agencies which demonstrates 
applications and benefits of alternative workplace 
arrangements, and I would certainly like to thank Congressman 
Wolf for participation in that video.
    A second thing that we have done recently is that we have 
collaborated, as the chairman mentioned, with the Department of 
Homeland Security to develop newly issued policy and guidance 
regarding the use of telework centers for continuous operations 
planning and operations.
    In the area of facility utilization management and funding, 
we are implementing a new initiative to encourage and guide 
agencies in the improvement of their facility management 
process through the use of alternative work officing, which 
combines teleworking with arrangements such as hoteling and 
desk sharing.
    In the area of new technology, which is of course becoming 
increasingly important to telework success, we are actively 
involved in examining and testing applications of new 
technology to facilitate telework programs.
    And last in these examples regarding our telework centers, 
we have taken steps to boost agency utilization of these 
centers through such things as having free trial periods for 
agencies to examine the use of the centers, including their use 
for COOP purposes and the new technology applications. As a 
result, recently we had a free trial and we gained more than 
100 new users, and we will use this encouraging good news as a 
basis for more creative promotion activities at these centers.
    In addition to supporting telework as a means of developing 
a high-performance Federal workplace, GSA has been proactive in 
supporting telework as a means of reducing traffic congestion 
and air pollution. And I would note that GSA has supported 
related initiatives such as the establishment of a Spouse 
Telework Employment Program which uses telework to provide 
career relief to spouses of relocated Federal personnel, such 
as those in the military.
    Regarding our own telework program at GSA, we have provided 
this committee with a comprehensive overview of our telework 
program in our previous testimony, but I would like to just 
provide a brief update now.
    While we have experienced, and continue to experience, what 
are referred to as the usual telework resistance issues, we 
have taken steps in an effort to overcome this and to increase 
our telework participation. We have made sure that our telework 
policies, first of all, are in complete compliance with the 
standards as set by OPM. Second, we have completed the work 
force review necessary to declare that 90 percent of our over 
13,000 workers are eligible for telework, and that 90 percent 
compares to 43 percent on a governmentwide basis.
    We have achieved telework participation rate of 24 percent, 
as compared to the State-wide rate of 14. And we recognize that 
24 percent, while a significant improvement, still falls very 
short of what we all seek to achieve. We continue to work to 
build our program and to achieve optimal utilization of 
telework.
    Mr. Chairman, we appreciate the congressional support that 
we have received for the development of Federal telework, and 
we share your frustration with the slow growth of the program. 
Since our previous testimony, OPM and GSA have made significant 
efforts to boost Federal telework, and while these efforts have 
resulted in increased participation, they have not yet achieved 
the level that we should have achieved and that we seek to 
achieve. To achieve more progress, our current recommendations 
focus in two areas: first is the area of management 
accountability and second is the area of technological 
capability.
    Regarding management accountability, we support OPM's 
published emphasis on the need for Federal agency management to 
take responsibility for meeting their statutory telework 
obligations. We commend this more aggressive approach and we 
recommend emphasis on agency managements working to ensure that 
they are using the best and most efficient telecommuting 
policies, and clarification of the standards that are used 
within agencies to determine telework eligibility; and OPM and 
GSA are prepared to work with them in doing that.
    Finally, regarding technological capability to facilitate 
significant long-term telework expansion and productivity, 
there needs to be improved management and investment in new 
technology.
    Mr. Chairman and members of the committee, that concludes 
my statement, and I would be happy to respond to questions you 
may have.
    [The prepared statement of Mr. Perry follows:]

    [GRAPHIC] [TIFF OMITTED] T6411.009
    
    [GRAPHIC] [TIFF OMITTED] T6411.010
    
    [GRAPHIC] [TIFF OMITTED] T6411.011
    
    [GRAPHIC] [TIFF OMITTED] T6411.012
    
    [GRAPHIC] [TIFF OMITTED] T6411.013
    
    Chairman Tom Davis. Thank you very much.
    Kay, thanks for being with us.
    Ms. James. Good morning. Mr. Chairman and members of the 
committee, it is a pleasure to be before you today to address 
the state of teleworking in the Federal Government. I am going 
to ask that the complete statement be entered into the record, 
and I am going to read an abbreviated statement.
    Chairman Tom Davis. Without objection, both complete 
statements are in the record.
    Ms. James. Thank you.
    In your invitation to testify, you asked me to address four 
critical questions. First, what is being done to encourage 
reluctant managers to adopt and implement telework policies. 
And I would like to go through each of those four questions 
quickly.
    In response to the first question, let me begin by 
expressing our appreciation to Chairman Wolf and Representative 
Hoyer and other members of the House Appropriations 
Subcommittees for providing a special appropriation of $500,000 
to help us focus efforts on agencies with less than 2 percent 
of eligible employees teleworking in 2002.
    OPM, in collaboration with GSA under Administrator Perry's 
leadership, has under taken a number of strategic initiatives 
to address the situation. These initiatives included special 
consultation and training for those 2 percent agencies and a 
multifaceted educational campaign designed for them that could 
be equally useful to virtually all Federal agencies as they 
worked on developing and enhancing their programs. For example, 
I have before me today a sample telework kit. We wanted to make 
it as easy as possible. Everything you need to know in one 
place to train, to motivate, to encourage; it is all here to 
help agencies in their effort to promote telework.
    A few days ago I met with representatives of the Chief 
Human Capital Officers on the subject of telework. We thought 
we would go straight to the top in the agencies and asked the 
Chief Human Capital Officers to join us in Fairfax for a 
firsthand view of what it looks like and how it could work. 
This provided an excellent opportunity to reenforce the 
importance of telework to mission and to discuss the solutions 
to the challenges they face in implementing telework. Perhaps 
the most visible indication of our efforts to help agencies 
implement telework is the information from the telework Web 
site we maintain in collaboration with GSA, which is, of 
course, www.telework.gov, that shows the range of information, 
assistance, and resources available to agencies, including our 
electronic manual for managers, supervisors, and telework 
coordinators. So if they want a hard copy, it is here; if you 
want to go to the Web and get everything you need to know about 
how to telework in the Federal Government, it is there.
    Incidentally, those pages are attached to the testimony 
that I submitted.
    I have also provided the committee a list of OPM's 2003 and 
2004 training activities, presentations, and products that 
promote telework.
    Mr. Chairman, you said it is the wheelbarrow phenomenon: 
nothing happens until you start pushing. We have been pushing. 
We have given you the list so that you can see the kinds of 
things that we are trying to do to encourage.
    I emphasize our effective collaboration with GSA. Our 
staffs collaborate and consult almost on a daily basis, and 
senior staff meet at least four times a year. The Memorandum of 
Understanding developed in October 2003 between the two 
agencies has helped to clarify the duties and responsibilities 
of each.
    The second question you posed was why are some agencies 
falling short of the laws governing for teleworking. First some 
perspective. It is getting just a little better. Since the law 
passed in 2001, the number of teleworkers has increased 93 
percent, from 53,389 in April 2001 to 102,921 in October 2003. 
We are actively working to understand and mitigate the real and 
perceived barriers agencies are encountering as they seek to 
implement and expand their telework programs.
    In a focus group setting, we explored what the phrase 
``management resistance'' actually means. That is, what are the 
specific aspects of telework that may lead to reduced usage? 
Participants were first-line supervisors from 25 agencies, some 
of whom currently or previously supervised teleworkers. 
Commonly expressed concerns from the survey included 
maintaining office coverage, especially with some employees 
already on compressed work schedules; finding times when 
everyone is available for meetings; nature of work; need to say 
no to some aspiring teleworkers while saying yes to others, 
with the attendant concerns about perception of unfairness; 
adequacy of employees, computer, and telephone systems; 
information security; perception of teleworkers that they would 
not advance professionally due to lack of direct contact with 
supervisors; evaluating employees without being able to see 
them working.
    With that list in hand, OPM has used these findings to 
shape the training; we use that information to help us know 
where to target the training.
    The third question was when will the law's goals be met. I 
believe we can expect greater progress through the rest of this 
decade. That is not nearly soon enough, does not satisfy me, 
and I know does not satisfy you as well.
    With respect to the last question, what, if any, 
legislative steps are needed to further motivate agencies to 
comply with the law, our view is that further legislation is 
unnecessary at this time; however, should the Congress believe 
additional legislation is needed, we stand ready to provide any 
technical assistance that may be useful.
    Mr. Chairman, telework is growing steadily in the Federal 
Government. Our goal is to make it a part of the new 
contemporary work force. I assure you that we will continue to 
champion telework as a key human capital strategy for the 
Federal Government.
    I would be glad to answer any questions that you may have. 
Thank you.
    [The prepared statement of Ms. James follows:]

    [GRAPHIC] [TIFF OMITTED] T6411.014
    
    [GRAPHIC] [TIFF OMITTED] T6411.015
    
    [GRAPHIC] [TIFF OMITTED] T6411.016
    
    [GRAPHIC] [TIFF OMITTED] T6411.017
    
    [GRAPHIC] [TIFF OMITTED] T6411.018
    
    [GRAPHIC] [TIFF OMITTED] T6411.019
    
    [GRAPHIC] [TIFF OMITTED] T6411.020
    
    [GRAPHIC] [TIFF OMITTED] T6411.021
    
    Chairman Tom Davis. Thank you both. I will just tell you 
where I come down on this. I think we may need additional 
legislation to get the word down to management. Despite your 
best efforts, Ms. James and Mr. Perry, to talk to some of these 
agencies, I think what Representative Wolf has proposed and 
what we may put on other appropriation bills may be something 
we need to do to get attention.
    We are way behind the private sector in this. I have gone 
into some of the new companies locating out in northern 
Virginia, where they have cubicles for their employees and they 
are virtually empty, and they are saying they don't need to be 
here; they can be on the road, they can be doing a lot of other 
things than hanging around.
    There are the traditional issues of how you get coverage 
and meetings and those kinds of things. You don't even need to 
be present for meetings anymore. I don't know if they know that 
or not, but the reality is that is why you have 
teleconferencing and everything else.
    We are way behind the private sector, which thrives on 
efficiency, and American taxpayers deserve the same thing.
    Second, I don't know if anybody has looked at traffic out 
there lately; I guess it dissipates a little bit in the 
summertime, but your average Federal employee commute here, it 
is not good in the Tidewater area. That is time they could be 
maybe at their home or someplace closer getting their work 
done. Just so many things I think we are missing out on.
    Now, there are some important issues, and, Ms. James, as 
you talked about in your surveys with managers, there are 
always legitimate concerns. You need somebody to answer the 
phone; somebody is going to have to be somewhere to answer 
inquiries coming in. And there are employees, let us face it, 
that will take advantage of the situation; oh, yeah, I am 
working, and ``your put'' you can hear it in the back. So we 
have that any time we go to something new. We faced this with 
credit cards. There is always going to be some employee abuse, 
and we just have to adjust our oversight accordingly.
    And what we found out as we have done these things, and I 
think you have seen this at GSA, Mr. Perry, is when we move to 
these areas, there is always a percent of employees who will 
try to gain the system and abuse, and they are not going to be 
with us forever in the private sector, the public sector, on 
Capitol Hill, and everything else. But the efficiencies that 
you gain by your good employees who then don't have to spend 
their time in traffic, who don't have to take off in the middle 
of the day to go to their kids' play, who, if they have a 
doctor's appointment, can be sitting there with their laptop 
and doing other things until they are called in far outweigh 
the abuse. And that is why the training and the kits are 
important, and why maybe Mr. Davis' suggestion that we set up 
some very established pilot programs and move quickly on this 
are so important.
    I just think we are missing the boat on this. I agree with 
Frank Wolf on this. And living in this region and seeing the 
traffic mounting every day--it is not all Federal employees, to 
be sure, the people moving in the street, but we should not be 
following the private sector and lagging way behind; we ought 
to be ahead of the curve on this kind of thing.
    So that is kind of where I come down.
    Mr. Perry, let me ask you as more eligible employees 
telework, do you think GSA can provide the technology and 
assistance to keep up with the Government's needs?
    Mr. Perry. Yes, we can. We, today, are able to provide some 
4,000 virtual network facilities for people who telecommute 
from home, and our people tell me that we could expand that 
with a small investment, less than $200,000, to be able to 
provide for up to 75 percent of our work force, if that became 
necessary.
    Chairman Tom Davis. The business model that we have had for 
so many years is you have office parks and people in offices 
and people driving to offices. As that model changes, we could 
save, theoretically, a lot of money on office space and stuff. 
I am talking about over the next 5, 10 years, if this gets 
implemented. Is that a possibility?
    Mr. Perry. Yes. One of the things we work on at GSA is what 
we call Workplace 20/20, and in the design of facilities for 
the future, you take into account alternative workplace 
arrangements, including telework, and you can actually occupy a 
smaller space and save the rent that would otherwise be paid. 
So there is no question there are benefits.
    One of the, I think, issues that has to be considered is 
whether or not, even though this launch has been too slow, the 
question is whether or not the foundation has now been put in 
place such that the inertia will begin to erode away and we 
will see more progress in the next couple of years. That might 
be optimistic, but I do believe that there has been a lot of 
good foundational work put in place so that the accomplishment 
of the next year certainly should exceed what we have been able 
to do in the previous year.
    Chairman Tom Davis. I guess my last question is as we take 
a look at the possibilities for teleworking, you really don't 
need telework centers. As broadband becomes available into 
homes, as you are able to get the laptops, people with cells 
and blackberries and everything else, the need for centers may 
not be as pronounced as we originally thought. Really, if you 
have an alert worker who takes their job seriously and pride in 
that, and wants to be efficient, in theory they could work out 
of their home; you don't need a center to report to.
    What are each of your views on that?
    Mr. Perry. Well, one of the considerations is the issue of 
cost. There are many other considerations. On the basis of 
cost, telework centers are still the most efficient. In other 
words, even at roughly $6,600 to equip a household, assuming 
they have the right telephone lines and so forth, when you 
compare that to what it would cost to work at a telecenter, it 
is less costly to do that. That may change with the advent of 
new technology and so forth. And it also will be impacted once 
you consider other factors; in other words, the convenience of 
home versus the telecenter and so forth. But cost alone would 
say that, at least as of today, it is still more economical to 
use a telecenter as opposed to equipping an individual's home.
    Ms. James. Mr. Chairman, probably the largest hurdles that 
we have to overcome with the Federal work force in promoting 
telework are the attitudes and perceptions of managers. As a 
result of that, I believe that telework centers are an 
incredibly important necessary interim step. You cannot visit 
one of these centers without understanding the tremendous 
opportunity that they provide for workers to come there, and to 
get the job done in an efficient manner. And I think when we 
take managers and supervisors into these centers and they can 
see them, it may alleviate some of the fear or anxiety that 
they have about the whole notion of telework.
    And, second, I think that the economy of scale is very 
important, because they provide far more than just a place to 
sit at a computer terminal; there are also the opportunities 
for conference rooms, there is also the opportunity to use 
other office machines that a person may not have at their own 
home. So if you need to fax something or copy something or put 
a document together or hold a meeting, you can in fact do those 
things in some of our telework centers as well.
    So I think, with the opportunity to alleviate fear and 
anxiety with managers, and show and tell is still one of the 
best ways to do it, we need to get more of our managers out 
there and visiting these centers to understand exactly what 
they are and how they can benefit their mission, particularly 
in a post-September 11 environment.
    Chairman Tom Davis. So the telesupport centers, to some 
extent, are like training wheels for management, basically, 
when you get down to it.
    Ms. James. That is a good way to put it.
    Chairman Tom Davis. OK. Thank you very much.
    Mr. Davis.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman.
    Director James, you have mentioned the attitudes of 
managers and supervisors. Are these attitudes a feeling of the 
inability to supervise, that is, to actually manage the quality 
of the work that is being done, is that what the fear is all 
about?
    Ms. James. I would say yes. It is managing in a different 
way, and our Federal work force, like most work forces are, is 
hesitant to change, and is cautious about new things. This is 
cutting-edge technology, or it was 10 years ago, but we are 
catching up, and people's attitudes have to grow and develop 
along with that. So I would say for a manager who is used to 
seeing 10 employees sitting near them that they can monitor and 
watch, the concept of having someone at a remote location is a 
little difficult for them to adjust to. So managers have to 
learn new skills; managers have to learn cutting-edge 
technology, and managers and supervisors have to learn what it 
is like to have a contemporary work force, and that takes time.
    Mr. Davis of Illinois. Mr. Perry.
    Mr. Perry. I would agree completely. You know, the manager 
is in the position of being held responsible for delivering a 
certain volume of work by his or her team, and I think as 
Director James points out, there is a little bit of anxiety or 
nervousness as to whether or not they will still be able to 
maintain the same or expected level of productivity and 
accomplishment if their workers are not there and they can 
observe the work happening. If you can put measurement systems 
in place that enable managers to be assured that the work is 
being done in a timely and accurate way, I think that fear will 
subside. But right now their ``legitimate concern,'' if you 
will, is what will happen to my ability to be productive as a 
work team if I can't observe people doing the work?
    Mr. Davis of Illinois. I have always maintained that a good 
part of work was the sense of being a part of a group, being a 
part of an activity, a part of what is taking place, I mean, 
the team concept. Are there any experiences which would suggest 
that workers might lose some of that? There are people who look 
forward to going to work because they are going to interact 
with other people in the office, or in the plant, or in the 
setting, or in the facility. Have we had any experiences which 
would suggest that there might be some impediment to that kind 
of relationship-building, which I think becomes a great part of 
productivity and a great part of the ability to get tasks 
accomplished?
    Ms. James. Well, very few of our teleworkers do it 100 
percent of the time, so as a result of that you have the 
opportunity for both; you are still a part of a very active 
team and you are plugged into that team, but you also have the 
opportunity on several days a week or a month, depending on how 
often you do it, to use that particular efficiency as well.
    I am sure that data exists out there, and perhaps some of 
the panels that come later can actually talk about that 
phenomena, I have seen it, I don't have it available in front 
of me right now, that talks about the kinds of things that 
happen in a work environment when people telecommute, and the 
data suggests that individuals who do that are able to maintain 
their sense of teamwork and camaraderie and mission. Of course, 
a lot of that depends, as I said, on how often a person 
actually telecommutes.
    Some of that is overcome, by the way, again, when we go 
back to the centers, because they are not isolated and at home 
by themselves, but are in telework centers with other employees 
either from the Federal Government or the private sector, and I 
am sure those kinds of relationships develop as well.
    Mr. Davis of Illinois. Thank you very much.
    Chairman Tom Davis. Mr. Schrock.
    Mr. Schrock. Thank you, Mr. Chairman. And thank you for 
holding this hearing.
    Mr. Perry, it is nice to have you here. It is always 
interesting to hear what you have to say. And it is always good 
to have my long-term friend, Kay Coles James, with us. And I am 
guessing if Director James could telework herself, she would 
want it to be in a center directly next door to her brand new 
first and only grandchild, is that right?
    Ms. James. Absolutely.
    Mr. Schrock. Absolutely. I know. That is the happiest woman 
on the face of the Earth.
    Chairman Tom Davis. That is not a good argument, I don't 
think, here. I don't think that is a good argument, Ed.
    Mr. Schrock. No, she won't do that; she has got a nice 
office now.
    Chairman Tom Davis. She would be a doting grandparent, I 
know.
    Ms. James. However, I would say, Mr. Chairman, that in 
order to show some leadership, I have made a commitment to 
telecommute 1 day a month, and I do. And if you ask my staff 
about how efficient it is, everyone always knows when it is the 
day after, because I have read the reports and I am able to 
analyze the data, and I am able to do the writing, and always a 
day after my telework day is a very productive day for 
everybody else at OPM.
    Mr. Schrock. Gee, I wonder if we want to go into that a 
little deeper.
    Let me ask Director James, in your opinion, is the 2000 law 
realistic? And if not, what standards could make that more 
attainable?
    Ms. James. Well, I do believe that it is realistic, and I 
think we can get there. I think probably the only thing that is 
unrealistic is the timing, just how long it takes to change a 
culture, because that is what we are talking about 
fundamentally here, is a cultural change, to get people to 
think differently, to act differently. And when you have a work 
force of 1.8 million people and you are trying to institute 
cultural change, that can take longer than it does in some 
smaller organizations. So I believe that it is realistic, but 
it may take us a little longer to get there.
    And I think Administrator Perry was absolutely on point 
when he says that the groundwork has been laid, and I think we 
are going to see some exponential changes in terms of the 
numbers as we look ahead in the future. It is not going to take 
as long because people are beginning to understand, the 
leadership is becoming more committed.
    So I think that the goals that are there are attainable, 
but it may take a little longer than people anticipated.
    Mr. Schrock. Mr. Perry, can I ask you the same question? 
Then I also want to followup with, in your view, why have the 
agencies failed to meet the telework goals that were set by 
Congress. I think Ms. James commented on that somewhat; I would 
be interested in your opinion as well.
    Mr. Perry. Yes. Well, first of all, with respect to my 
personal telecommuting, as I said to Director James, I tend to 
do that on Saturday and Sunday. But in all seriousness, I think 
this matter of cultural change is a big part of the reason why 
we haven't made more progress, because it is the case that 
cultural change does take time. I also, though, would say to 
you that what I believe is also a part of the issue is that 
agencies just haven't had this as a priority. Now, as a result 
of the education and training that has been done in this last 
year and a half, I think that too is now changing. I don't see 
that we have the same degree of resistance at the senior levels 
of agencies, and I see more and more cases where agency people 
are, as a result of this training and education, becoming more 
committed.
    So I think the reasons for the slow take-up have been the 
cultural change and priority, and I believe that both of those 
are on a track toward resolution. The big question is are they 
on a track that will accelerate to the pace that we really 
need, or do we need another impetus to get to that pace. That 
question I don't know the answer to.
    Mr. Schrock. Let me ask you, too, what IT concerns do--I 
keep wanting to say teletechnet, because that is what we have 
at home at Old Dominion University--telework pose and what is 
GSA doing to address those?
    Mr. Perry. Well, the issue of cost had been a concern, but 
that has been coming down. Now there is the issue of 
implementing newer technology now that wireless is no more 
secure----
    Mr. Schrock. I was just reminded I left out a key word: IT 
security.
    Mr. Perry. IT security? Well, it is the fact that this kind 
of telecommuting is now more secure, can be made more secure 
when it needs to be, and in some instances the use of wireless 
technology can be done in a secure way. So as that kind of 
technology enhancement comes along, then people will become 
more comfortable with the issue of information security in a 
telecommuting situation.
    Mr. Schrock. Let me ask Director James is the number of 
employees deemed eligible by agencies representative of the 
actual number of eligible employees, and do you recommend a 
governmentwide definition of eligible? And from what you 
learned, are employees even aware that they can do this?
    Ms. James. I would hesitate to implement any sort of 
Governmentwide definition of eligible because I believe that 
each agency, based on each agency's mission and based on how it 
orders its work, it could vary from agency to agency. One 
particular classification may be eligible in one agency, but 
not necessarily in another. So I would exercise some caution 
there and would like to look at any language that talks about 
any type of Governmentwide eligibility.
    Having said that, a part of our mission has been to try to 
make every employee who is eligible know and understand that 
they are, and that is a part of our mission at OPM and it is 
also something that we are monitoring and working with our 
Chief Human Capital Officers in each of the agencies to make 
sure that every employee who is eligible knows and understands 
that they are.
    Mr. Schrock. Are you getting a good response from that?
    Ms. James. I think the response has been good. I dare say 
you can still find Federal employees out there who are eligible 
who don't know that they are, and that is because our job isn't 
entirely done yet.
    Mr. Schrock. Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you.
    Ms. Watson.
    Ms. Watson. I want to thank both of the administrators for 
being here and really formalizing for us the wave of the 
future. As I read through the projects that are already 
underway, I just would like you to clarify for me, No. 1, I 
notice most consistently it is 1 day a week. Would it be more 
opportune to allow them to have a work schedule more than 1 day 
a week? Because I can see this saving space in a location where 
they all would come to. If you want to utilize the facilities, 
I would think you would want more workers doing telework. So 
you might want to comment on that. The pilots I am sure will 
give you some results that will help you with that.
    Then if it is a structured work day at home and you are 
looking at performance, how is the performance reported, and is 
it reported on a day-by-day basis?
    Overall, would we be able to save the cost of 
infrastructure, a facility, let alone the benefit to the 
environment?
    And I think it is an excellent program, period, 
particularly for family people.
    So can you comment, either one?
    Mr. Perry. Well, I will start. The statistic that shows the 
prominence of the 1-day a week are the statistics for the use 
of telecenters. So those are the centers, as opposed to 
telecommuting from home. The guidelines that OPM has put out 
defines telework as you can be counted as a teleworker if you 
are teleworking at least 1 day a week. But many people do 
telework more often than that. That is not a limitation, it 
just says if you are telecommuting more than 1 day a week, you 
are not counted. And there are people who telecommute in the 
evening or maybe half a day or something, but in order to be 
counted in these statistics, it has to be at least 1 day a 
week; and there are many who telecommute more than that.
    Your second point is certainly correct: as more and more 
people telecommute, even 1 day a week or certainly more than 
that, then it relieves the pressure on how much physical space 
you have to lease or construct to house your work force. And we 
haven't seen a big impact of that yet, but we do take that into 
account as we look at designing buildings and leasing 
facilities in the future, and our expectation is that, yes, our 
leasing cost will come down as more and more people work from 
alternative locations.
    Ms. Watson. May I just comment? Wouldn't the telecenters, 
if you expect them to go to a center, have the same problem as 
you have now in your regular structured environment?
    Mr. Perry. In terms of having to provide the physical 
space?
    Ms. Watson. Yes.
    Mr. Perry. Yes. And telecenters I think are an interim. It 
is not the ultimate, but it is a way of stepping into the 
process, sort of a low-cost approach before you might get to 
the ultimate, which would be each individual telecommuting from 
their individual location, where that is appropriate.
    Ms. Watson. Now, with the job market the way it is in many 
parts of the country, is it realistic to believe that if this 
kind of telework concept catches on nationally, is it realistic 
to think that people will have the equipment in their homes in 
order to telework? And is there a grant program, is there some 
financial assistance, if it is a governmental program, to 
supply them with the necessary equipment rather than a telework 
center?
    Mr. Perry. Yes, I think that is the trend, as the cost of 
equipping a home comes down, and to the extent that a person 
would regard their home as being the most appropriate place to 
work. There are some who would not prefer to do that because of 
children or other family members or what have you, but the 
trend seems to be that more people are moving toward 
telecommuting from home than telecommuting from centers. It has 
been our practice, at least at GSA, when a manager says yes to 
an associate who would like to telecommute, that a part of that 
saying yes is to equip the home adequately to provide for that 
telecommuting, if that is where they decide the telecommuting 
has to be done from. So I think we will see more and more of 
that.
    Ms. James. Mr. Chairman, I think we shouldn't gloss over or 
move over too quickly that this is an expensive proposition and 
that there are issues related to paying for this in employees' 
homes, how you maintain upkeep the equipment in many different 
locations; and those are all questions that we have to address.
    I did want to mention just for a minute the 1-day a week 
that you talked about. That is just the minimal in order to be 
counted. There are several categories of teleworkers. For 
example, there is the situational teleworker, who may telework 
for a period of time because of an illness or an incident or an 
event. Situational teleworkers averaged about 3 days a month; 
and for core teleworkers, those teleworkers average about 6 
days a month. So it is far more than just the 1-day a week.
    So I just wanted to make sure that you understood those 
distinctions.
    Chairman Tom Davis. Thank you.
    Ms. Watson. Do I have any more time?
    Chairman Tom Davis. Your time has expired.
    Ms. Watson. Thank you.
    Chairman Tom Davis. We have another panel I want to move on 
to.
    I want to thank you both for being here. We will continue 
to have dialog with you and your agencies, and I want to thank 
you both for your leadership in this.
    We will take about a minute recess while we change panels.
    I am going to call the next panel and, if it is all right 
with the participants, try to call everyone together, the 
second and third panel together, so we can get everybody up 
here together, both government and private sector. I think it 
will help expedite the questions.
    So we will move to our next panel and take a very brief 
recess.
    [Recess.]
    Chairman Tom Davis. We move to our second panel, and I 
appreciate everybody going together, but given our vote 
schedule and trying to move everybody out of here and keep 
Members here, I think this is the best way to go.
    Your entire testimony is in the record, so you don't have 
to use all of your 5 minutes if you don't want to; you can 
highlight the important factors. We have questions based on the 
written testimony that you submitted, and depending on what you 
highlight, we may change the questioning.
    Our panel is Pamela Gardiner, who is the Acting Inspector 
General for Tax Administration at the Department of the 
Treasury. We have Scott Cameron, the Deputy Assistant Secretary 
for Performance, Accountability, and Human Resources, 
Department of the Interior. We have Scott Mihm.
    Is that how you pronounce it? I am sorry, Chris Mihm.
    Mr. Mihm. Yes, sir.
    Chairman Tom Davis. The Director of Strategic Issues, 
General Accounting Office. Then we also have Dr. James Kane, 
who is the president and chief executive officer of the 
Software Productivity Consortium out in northern Virginia. We 
have Steven DuMont, who is the vice president, Internet 
Business Solutions Group, at Cisco Systems, Inc.; Eric Richert, 
vice president for iWork Solutions Group, Sun Microsystems; and 
Carol Goldberg, who is the former telework program manager for 
the Fairfax County Government.
    I thank all of you for being here. It is our policy we 
swear everybody in before your testimony; we are a major 
investigatory committee. Just rise with me and raise your right 
hands.
    [Witnesses sworn.]
    Chairman Tom Davis. Thank you very much.
    Pamela, we will start with you, and we will move right on 
down the line. Your light will light up, after 4 minutes it 
will turn orange, and after 5 minutes red; and if we can move 
to summary if it turns red. And if you can beat that, all the 
better, then we can move to questions.
    Thank you very much for being with us.

STATEMENTS OF PAMELA J. GARDINER, ACTING INSPECTOR GENERAL FOR 
   TAX ADMINISTRATION, DEPARTMENT OF THE TREASURY; SCOTT J. 
       CAMERON, DEPUTY ASSISTANT SECRETARY, PERFORMANCE, 
    ACCOUNTABILITY, AND HUMAN RESOURCES, DEPARTMENT OF THE 
INTERIOR; AND J. CHRISTOPHER MIHM, DIRECTOR, STRATEGIC ISSUES, 
                   GENERAL ACCOUNTING OFFICE

    Ms. Gardiner. I appreciate the opportunity to appear before 
you today to discuss the challenges and success that the 
Treasury Inspector General for Tax Administration [TIGTA], has 
experienced with telework. Much of the work we do at TIGTA, 
audits and investigations of the Internal Revenue Service, 
lends itself to being done in a virtual environment. We believe 
telework increases productivity, enhances employees' 
satisfaction, and saves American taxpayers' dollars.
    As you may know, TIGTA has enjoyed tremendous success with 
telework and serves as an example of best telework practices 
for the Federal community. TIGTA was even recognized for 
excellence in telework by receiving the Commuter Connections 
Employer Recognition Award for Telework in 2003. Currently, 
854, or 97 percent, of our total 884 employees are eligible to 
telework. Of these 854 eligible employees, 92 percent choose to 
participate in the program.
    TIGTA offers employees four levels of participation. The 
participation level dictates the number of days a week the 
individual will telework and the associated costs that TIGTA 
will pay. The four levels of participation are defined as: 
full, which allows an employee to telework 4 to 5 days per 
week; expanded, which allows an employee to telework 2 to 3 
days per week; limited, which allows an employee to telework 1 
day per week; or episodic, which allows for situational or 
task-based telework.
    While telework at TIGTA is very successful, we did 
experience challenges when first developing the program. In 
fiscal year 2000, TIGTA was one of the first Federal agencies 
to pilot and implement a telework program. There was no model 
to follow, so we developed our own. We experienced difficulty 
in finding resources available to answer questions, propose 
policy, and identify appropriate training. Apart from the 
policy aspects, a significant technical challenge was in the 
area of broadband service. While availability has somewhat 
increased, it is still not available in all locations where 
TIGTA employees live. Additionally, at the time of 
implementation broadband technology was new to TIGTA, and non-
standardization of service posed added complexity. Finally, 
gaining management buy-in to the program was a significant 
hurdle.
    In addressing these challenges, TIGTA used information from 
our pilot program, private industry best practices, and 
conducted management training to address concerns. We developed 
a comprehensive network of technical and human resources 
support that shared organizational successes by communicating 
increases in productivity and work quality. There are several 
factors we have identified that we think other agencies may 
find helpful in developing their own programs: we timed our 
program rollout in conjunction with a technology upgrade to 
minimize expenses; we provided all employees with laptops, 
rather than desktop computers; we installed a virtual private 
network to ensure top-notch security; we required the use of 
high-speed broadband technology for participants at the full 
and expanded participation levels to ensure productive data 
transmission; we structured a flexible telework policy to meet 
the needs of the work environment; we provided training to all 
employees and managers before participation; and we provided 
employees on full-time telework with printers and other key 
tools.
    Our Atlanta office demonstrated a high level of successful 
participation in telework, which led us to the next phase of 
our program: hoteling. This concept entails significantly 
reducing overall office space and the number of individually 
assigned work stations. Individuals use software to reserve a 
workspace when they need to be in the office. We anticipate 
rent savings of $100,000 from this one office in the first full 
year of operation.
    TIGTA has also incorporated telework into our Continuity of 
Operations Plan [COOP], and it is an integral part of our 
business resumption planning activities. By having the policies 
and provisions in place, should activation of the COOP become 
necessary, TIGTA will be able to maintain a steady work force 
and quickly resume normal business operations overseeing the 
IRS and protecting tax administration.
    In closing, telework is good for TIGTA because we believe 
we can get the job done quicker and less costly. It is good for 
our employees because we believe they can focus on doing their 
work instead of getting to work. And, most importantly, it is 
good for taxpayers because we believe Federal resources are at 
their optimal use.
    This concludes my statement.
    [The prepared statement of Ms. Gardiner follows:]

    [GRAPHIC] [TIFF OMITTED] T6411.022
    
    [GRAPHIC] [TIFF OMITTED] T6411.023
    
    [GRAPHIC] [TIFF OMITTED] T6411.024
    
    [GRAPHIC] [TIFF OMITTED] T6411.025
    
    Chairman Tom Davis. Thank you very much.
    Mr. Cameron.
    Mr. Cameron. Thank you, Mr. Chairman and members of the 
committee, for the opportunity to testify before you today.
    The Department of the Interior supports teleworking as part 
of our overall commitment to improving the quality of work life 
for our employees. Since 1994, the Department has encouraged 
managers to use telework as one of the flexible work 
arrangements that create a family friendly atmosphere.
    We have encouraged our bureaus to use the extensive 
guidance material presented by OPM and GSA. While the majority 
of our bureaus have telework policies, the Department is in the 
process of formalizing the first Department-wide policy. That 
will be in place this October.
    We also encourage the use of telework when employees may 
face difficulties in commuting. Because of our proximity to the 
World Bank, for instance, and other financial institutions, we 
have encouraged employees with approved telework agreements to 
telework during meetings of the International Monetary Fund or 
when there are other major events in downtown Washington such 
as the NFL kickoff last year on the national mall and the day 
before the World War II Memorial dedication this spring.
    The Department of the Interior employs over 70,000 
employees--actually, it is 70,000 FTE, but about 80,000 
employees--at over 2,400 worksites around the country. Many of 
these worksites are in remote locations, in very small offices 
of 10 employees or less. Many employees in our national parks 
and wildlife refuges, for instance, are in jobs that require 
them to be at a park or a refuge, providing service directly to 
the public. Also, Interior has the third largest number of law 
enforcement personnel for protecting many of the Nation's 
important monuments and dams. Since September 11 and during 
periods of heightened security, their responsibilities have not 
been conducive to teleworking.
    We do realize, Mr. Chairman and members of the committee, 
that we have a long way to go; there is more we can do at 
Interior in terms of providing teleworking opportunities. We 
plan to hold focus groups to bring our successful managers 
together to share their best practices and identify the 
obstacles they have overcome. We think that will help.
    I would like to reflect, if I could, for the balance of my 
time, on a number of points, Mr. Chairman. First of all, with 
the new emphasis on outcomes and results under the Government 
Performance and Results Act over which this committee has 
jurisdiction, we feel that increasingly the performance 
agreements with individual employees will be outcome- and 
results-oriented, less process-oriented. That should raise a 
comfort level of managers, to simply say, ``deliver on the 
outcome and the results that we want, that you are accountable 
for under the strategic plan, and we don't need to watch you 8 
hours a day.'' If you deliver the results, that is what we are 
interested in; that is what counts. So I think over time the 
new improved GPRA plans will help facilitate teleworking.
    The second point I wanted to observe relates to, I think, a 
very astute observation of Mr. Davis from Illinois earlier in 
the hearing when he talked about how employees want to be part 
of a team, how they get inspiration from being in a group 
setting. Mr. Schrock and I participated at a dedication at 
Chincoteague National Wildlife Refuge of a visitor center 
honoring former Congressman Herb Bateman from Mr. Schrock's 
district, and he and I both noticed half a dozen really bright 
young Fish and Wildlife Service employees, probably in their 
20, in their Fish and Wildlife Service uniform. Well, they were 
probably all biologists, and the reason they are working for 
the Fish and Wildlife Service is they like being in the field; 
they want to have the waders on, they want to be out there 
banding the ducks, they want to be doing sampling of fish 
populations. Telling somebody like that, guess what, you get to 
spend a day, a week sitting at home in front of a computer is 
like giving them a sentence. They would hate that. In fact, 
real world experience is whenever we try to drag our employees 
in from the field to a regional office or headquarters, they 
come kicking and screaming. They want to be out there in the 
national parks, they want to be out there on the wildlife 
refuges, because that is where they get inspiration, Mr. Davis. 
That is what is fun.
    So while some folks might be eligible for teleworking, you 
would have a hard time convincing them that they ought to be 
sitting at their home on a computer instead of out with the 
waders on, walking around the marsh. So that point I think is 
worth making.
    About 72 percent of Interior's employees, in fact, work in 
the field. That is almost the converse, for instance, of the 
Education Department, where around 72 percent work in 
Washington, DC. So the vast majority of our employees are 
working in the field; they need to be interacting with the 
public on a daily basis. Think of Great Falls National Park, 
think of Chincoteague, Yorktown, Jamestown. We need our 
employees there to talk to the public; they want to talk about 
Old Faithful Geyser, they want to provide interpretation. So 
while they may have the legal opportunity to telework, you 
might have a hard time dragging them out of the marsh, I guess 
is part of the point I would like to make.
    We are trying to lead by example, recognizing our problems. 
In my own office, I have several employees who work for me who 
are teleworking, and, frankly, it is more productive; they get 
a lot more work done than when they are sitting there in the 
office and I am interrupting them every couple of hours. So we 
are trying to lead by example, Mr. Chairman, but we realize we 
have a long way to go.
    [The prepared statement of Mr. Cameron follows:]

    [GRAPHIC] [TIFF OMITTED] T6411.026
    
    [GRAPHIC] [TIFF OMITTED] T6411.027
    
    Chairman Tom Davis. Basically, you are saying the 
statistics don't apply when you have 70 percent of your people 
in the field.
    Mr. Cameron. Yes. I think that is right, Mr. Chairman. I 
would say if you looked at the employees in our regional 
offices and our headquarters office, just at them, we are 
probably at around the 10 percent level, which is not where we 
need to be, granted, but it looks a lot better than if you 
count all the field level employees.
    Chairman Tom Davis. OK.
    Mr. Mihm, thanks for being with us.
    Mr. Mihm. Chairman Davis, members of the committee, it is a 
pleasure to be here today to discuss how we can increase 
Federal teleworking. As has been noted that telework has 
received significant attention, of course, here in Congress and 
across the executive branch and is a popular flexibility among 
Federal employees, a successful telework program has a number 
of benefits that we have discussed this morning, including 
improving employee morale, reducing traffic congestion, 
pollution, and the rest.
    Moreover, in the aftermath of September 11, there has been 
a growing appreciation that teleworking is not just a good 
thing, but a very important thing. This is exactly the point, 
Mr. Chairman, that you were making in your opening statement. 
We reported in a report that we did back in April that telework 
can help employees continue to contribute to the agency in the 
event of a disruption, and these disruptions, as Mr. Cameron 
just noted, can cover a wide range of events are not just the 
horrific incidences of terrorism.
    OPM and GSA guidance has underscored that the ability to 
telework has been and will continue to be important in times of 
emergency situations, and, for example, OPM suggests, and our 
work certainly confirms, that agencies should make telework a 
consistent and concerted part of their continuity of operation 
planning.
    This last May OPM released its annual telework report of 
its survey of 74 agencies last fall. OPM reported that the 
percentage of telework-eligible employees grew from 35 percent 
in 2002 to 43 percent in 2003. And as has been noted, this is a 
positive development to be sure, but still well below Congress' 
expectations.
    Importantly, however, the report also indicated that the 
percentage of telework-eligible employees who actually 
telework, as opposed to eligibility, those who were actually 
engaging in telework remained roughly stable between 2002 and 
2003 at about 14 percent, although, of course, the number 
increased from about 90,000 in 2002 to 103,000 in 2003.
    On your first panel this morning, OPM Director James and 
GSA Administrator Perry discussed the efforts that their 
agencies are taking to increase telework. We in GAO have 
attempted to play a constructive role in this regard as well, 
and to help agencies develop successful telework programs, we 
identified a set of key practices for the implementation of 
telework. These practices, developed as part of a report that 
we did for you last year, Chairman Davis, are shown in my 
written statement on page 4 and on the boards over here to my 
right. And they are not designed to be read by you but they are 
in the written statement. OPM and GSA have distributed these 
practices to agency telework coordinators and recommended that 
the agencies use them to self-assess their programs.
    Our report also discussed these practices in more detail 
and provided illustrations of their implementation. We found 
last year, when we reviewed the progress of several agencies, 
that these individual agencies needed additional guidance, 
guidelines, and/or individualized technical support to fulfill 
many of these practices, thus underpinning the importance of 
the successful implementation of the initiatives that Director 
James and Administrator Perry discussed today. For example, we 
found, in the agencies that we studied, that they had not 
established program goals, were not providing full funding to 
meet the needs of their telework programs, nor had they 
established eligibility criteria to ensure that teleworkers 
were selected on an equitable basis. Obtaining support from top 
management for telework, addressing managerial resistance to 
flexibility, and providing training and information on the 
telework program were also identified as challenges at the 
agencies that we examined.
    Mr. Davis raised today the issue of being connected, and 
that is that in a Federal work environment that is increasingly 
knowledge-based and team-based, it is important that employees 
feel and actually are connected to the larger work around them, 
a vital point. I would also note, though, that as part of that 
telework can actually help with this view of connection. In our 
own experience in GAO, where we have had disruptive events that 
have required us to evacuate parts of the building, we have 
found that the ability to telework increased the feeling of 
connection. In this case it was employee at home computer 
talking to employee at home computer rather than employees 
talking, one at a home computer talking to people at work. So 
telework can have this vital connecting effect as well.
    A final point, and this is in regards to making sure that 
we keep an expansive view of exactly what telework is, and this 
is what Ms. Watson was asking in some of her questions. We need 
to be clear that telework can both be the continuing telework 
that Chairman Davis discussed at your district office manager 
has, a short-term telework, which is what your staff director 
had, and as well as episodic telework, which is what Ms. 
Gardiner says they are doing at TIGTA and that we have at the 
GAO. And I didn't get a chance to ask Ms. Gardiner about this, 
but our experience at GAO is that this episodic telework is 
going to be the largest amount of telework that you actually 
have, that is, that certain parts of each person's job over the 
period of a year, there are points at which it makes more sense 
than less for them to be working at home. That is the key 
flexibility that employees like to have. That is the advantage 
to telework.
    Let me, with that, conclude my statement. I would welcome 
any questions that you may have.
    [The prepared statement of Mr. Mihm follows:]

    [GRAPHIC] [TIFF OMITTED] T6411.028
    
    [GRAPHIC] [TIFF OMITTED] T6411.029
    
    [GRAPHIC] [TIFF OMITTED] T6411.030
    
    [GRAPHIC] [TIFF OMITTED] T6411.031
    
    [GRAPHIC] [TIFF OMITTED] T6411.032
    
    [GRAPHIC] [TIFF OMITTED] T6411.033
    
    [GRAPHIC] [TIFF OMITTED] T6411.034
    
    [GRAPHIC] [TIFF OMITTED] T6411.035
    
    [GRAPHIC] [TIFF OMITTED] T6411.036
    
    [GRAPHIC] [TIFF OMITTED] T6411.037
    
    [GRAPHIC] [TIFF OMITTED] T6411.038
    
    Chairman Tom Davis. Thank you very much.
    Dr. Kane, thanks for being with us.

   STATEMENT OF JAMES A. KANE, PRESIDENT AND CHIEF EXECUTIVE 
 OFFICER, SOFTWARE PRODUCTIVITY CONSORTIUM; STEVE DUMONT, VICE 
 PRESIDENT, INTERNET BUSINESS SOLUTIONS GROUP, CISCO SYSTEMS, 
INC.; ERIC RICHERT, VICE PRESIDENT, IWORK SOLUTIONS GROUP, SUN 
   MICROSYSTEMS; AND CAROL GOLDBERG, FORMER TELEWORK PROGRAM 
            MANAGER, FAIRFAX COUNTY, VA, GOVERNMENT

    Mr. Kane. Thank you. Chairman Davis, members of the 
committee, guests and committee staff, I appreciate the 
opportunity to be here with you this morning to share our 
perspectives on telework.
    It is very appropriate that this committee is looking at 
telework, given the history of this committee and your 
initiatives specifically, Chairman Davis. How we acquire 
technology is dramatically different in the last 10 years 
because of FARA and FASA. How we invest in technology, rather 
than look at it as a cost element, is totally different because 
of the Information Technology Management Reform Act. And how 
citizens and business interact with government is very 
different just over the last few years because of the 
Electronic Government Act. So, in fact, we have seen dramatic 
changes in government over the last 8 to 10 years, and as we 
look at telework, we have the option to either sort of solve 
the problem or seize an opportunity.
    In looking at why there has been a low rate of adoption in 
telework, we have looked at three issues: cost, technology, and 
policy. It is not cost. The Federal IT budget this year, as you 
know, Chairman Davis, is about $59.1 billion. Typically, 
agencies spend about 30 to 40 percent of their IT on 
infrastructure. So with those numbers, it is not a cost issue.
    Technology. A lot of what we have heard this morning has an 
implicit comment that the technology is sort of a 1980's, early 
1990's vintage technology; that what telework allows is sort of 
the solitary worker doing individual types of tasks. It doesn't 
account for the types of collaboration that current technology 
allows. Technology are much more enabling now, and so the types 
of eligibility that is associated with current technology are 
greatly expanded.
    Third, in the area of policy, the policies that we have 
largely reflect that 1980's, 1990's vintage technology, and so, 
therefore, as we start to look at policy, we have to change 
from sort of like a policy that is sort of like telework is 
enabled if it doesn't diminish productivity. We know that it 
increases. We look at it from a standpoint of eligibility. It 
is not just the solitary worker, but it is also the manager, 
the executive because I can see you. Session cost: the desktops 
are there, the network access is there; the session costs are 
minimal, and so the technology is there.
    And finally in terms of an approach to telework, an awful 
lot of what we see in terms of existing policy has been one of 
containment, as opposed to necessarily one of enablement; so 
that as we develop new policies toward telework, I would 
strongly encourage the policy approach that sort of seizes the 
opporutnity here and really lets us move forward with it.
    In recommendations which we have put forth in our written 
testimony, let me highlight three. First of all, policy 
approach. Policies that sort of take advantage of contemporary 
technology, policies that are adaptive, and policies that are 
dynamic, because as I said in my written testimony, pardoning 
the slang, you ain't seen nothing yet. I mean, the technology 
is going to be dramatic as it changes over the next few years.
    Second, you can't manage what you can't measure. OMB keeps 
track of expenditures for information technology. We know how 
much is going on to infrastructure, we know how much in 
security, and we know how much in architecture. Why don't we 
know how much is being spent by agencies to support 
telecommuting and distributed work?
    And finally we heard this morning that this is a complex 
problem, there are cultural issues, there are business issues, 
that we are behind the curve. Well, I would encourage the 
committee to consider creation of some type of national center 
for telework and distributed work so that individuals with 
diverse disciplines of technology, business, human resource 
management can come together and, instead of being behind the 
curve, we can get ahead of the curve.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Kane follows:]

    [GRAPHIC] [TIFF OMITTED] T6411.039
    
    [GRAPHIC] [TIFF OMITTED] T6411.040
    
    [GRAPHIC] [TIFF OMITTED] T6411.041
    
    [GRAPHIC] [TIFF OMITTED] T6411.042
    
    [GRAPHIC] [TIFF OMITTED] T6411.043
    
    [GRAPHIC] [TIFF OMITTED] T6411.044
    
    [GRAPHIC] [TIFF OMITTED] T6411.045
    
    [GRAPHIC] [TIFF OMITTED] T6411.046
    
    [GRAPHIC] [TIFF OMITTED] T6411.047
    
    [GRAPHIC] [TIFF OMITTED] T6411.048
    
    [GRAPHIC] [TIFF OMITTED] T6411.049
    
    [GRAPHIC] [TIFF OMITTED] T6411.050
    
    [GRAPHIC] [TIFF OMITTED] T6411.051
    
    [GRAPHIC] [TIFF OMITTED] T6411.052
    
    [GRAPHIC] [TIFF OMITTED] T6411.053
    
    [GRAPHIC] [TIFF OMITTED] T6411.054
    
    [GRAPHIC] [TIFF OMITTED] T6411.055
    
    [GRAPHIC] [TIFF OMITTED] T6411.056
    
    [GRAPHIC] [TIFF OMITTED] T6411.057
    
    [GRAPHIC] [TIFF OMITTED] T6411.058
    
    [GRAPHIC] [TIFF OMITTED] T6411.059
    
    [GRAPHIC] [TIFF OMITTED] T6411.060
    
    [GRAPHIC] [TIFF OMITTED] T6411.061
    
    [GRAPHIC] [TIFF OMITTED] T6411.062
    
    [GRAPHIC] [TIFF OMITTED] T6411.063
    
    [GRAPHIC] [TIFF OMITTED] T6411.064
    
    Chairman Tom Davis. Thank you.
    The bell is going off. We have three votes on the floor, 
but I think we have time at least for Mr. DuMont to get your 
statement in. Then afterwards we will come back and pick yours 
up and get to questions.
    Thank you for being here.
    Mr. DuMont. Mr. Chairman, distinguished members, it is a 
pleasure and a privilege to be with you here today to share 
both our experience and the experience of many of our clients 
around the world in facing the challenges associated with 
change management. Clearly, that is the issue that is on the 
table.
    Today we still have the attitude that work is someplace you 
go rather than something you do, and that obviously is not 
supportive of telecommuting. My organization, my group is 
involved at this point in time as a trusted advisor on a pro 
bono basis with about half of the global 500 companies and over 
100 major government agencies around the world. The problem is 
a recurring problem, that is, how do we effect change.
    We did a study last year of 300 companies and asked the 
question of what challenges did they face in attempting to 
implement change. The going-in assumption would be that the 
problems of today are primarily associated with technology. 
What we discovered is that the No. 1 challenge in implementing 
change is indeed cultural; No. 2 is a lack of buy-in from 
leadership; No. 3 is the fact that the processes are not 
conducive to change; and on the fourth position in this study 
was the fact that there are still some lingering challenges 
associated with technology, but it was by far the least 
significant factor.
    Let me relate a little bit of our experience, and one of 
the things that we have learned about change management is it 
typically only occurs when there is a crisis; otherwise, people 
resist change. In 1992 we faced a challenge, we faced a crisis. 
The problem we were having is that our growth rate could not be 
sustained by available people to hire in Silicon Valley. We 
needed talented engineers; there were essentially none 
available. The approach that we took was to formulate a policy, 
a guideline to use telecommuting in order to expand our 
recruitment area well beyond Silicon Valley so that we could go 
to the engineers wherever they were, and if they weren't 
willing to relocate, we would allow them to work on a 
telecommuting basis.
    So we have over 10 years of experience deploying this kind 
of technology, and today, with our global human resources 
distributed over 81 countries, we are at a point where in 
excess of 90 percent of all of our employees, regardless of 
their job function, are telecommuting. They are telecommuting 
with broadband access from their residence. So we find that 
this indeed can be accomplished.
    We measured the financial impact in terms of hard dollars 
for our last fiscal year ending July of last year, and our 
direct benefits associated with telecommuting were $187 
million.
    Today we are embarking upon a new generation of 
telecommuting. We have a pilot underway in our organization 
where 600 individuals are using a new generation of technology 
to telecommute. One of the challenges we faced in the past is 
that our people have said we don't want to be deprived of any 
of our applications, and we are at the present time not able to 
provide full access to video, to e-learning, and those types of 
applications. With the new generation technology we will be 
able to do that. We will start this fall and we will convert 
essentially 100 percent of our people to new generation 
technology at their homes.
    In terms of recommendations for how the U.S. Federal 
Government might move forward, No. 1, we would recommend that 
the focus not be on who is eligible, but that the focus be on 
who is ineligible, because we think that should be a far 
smaller number of people, and we believe that if people focus 
on the question of, well, why couldn't an individual 
telecommute, you will discover that there are very few who 
can't telecommute or, in the case of the folks out in the 
marshes, they should, in our opinion, be connected so that they 
can commute from the marsh.
    We, at the present time, have an interesting policy, and 
our policy today is if you don't telecommute, we will subsidize 
you. So the current program is that we pay you up to $100 a 
month in order to get into a carpool or to ride the Metro to a 
location where, in reality, I think we have agreed we don't 
want you. We would suggest that we broaden the concept of 
commuting to include telecommuting, so that if you are willing 
to stay home, perhaps we could reimburse you for the broadband 
service so that you could be more effective at home.
    We do believe that continuation of operations should have a 
very significant component in the form of telecommuting. We 
believe that we need to reinvent the processes in such a 
fashion that they are digitized. So if you look in my office, I 
have one file in my office, and only one file. It contains 
receipts so that in the event that the IRS should want to come 
visit, they could have something to look at. Other than that, I 
have no paperwork in the office, so I can commute from 
anywhere.
    We think that metrics are important. We ought to be able to 
measure the work that is accomplished rather than the time that 
is put in. That will change the attitude of management. We 
don't believe in building second facilities; we believe that 
homes are probably the ideal place for most people to commute 
from. And we believe that it is important for the Federal 
Government to become competitive in attracting new people, 
because over 50 percent of the U.S. Federal Government 
employees will be eligible for retirement in the next 5 years 
and will face a challenge attracting new people.
    So we personally find that telecommuting does lead to a 
competitive advantage in attracting people and continue forward 
with the next generation of telecommuting.
    Thank you very much.
    [The prepared statement of Mr. DuMont follows:]

    [GRAPHIC] [TIFF OMITTED] T6411.065
    
    [GRAPHIC] [TIFF OMITTED] T6411.066
    
    [GRAPHIC] [TIFF OMITTED] T6411.067
    
    [GRAPHIC] [TIFF OMITTED] T6411.068
    
    [GRAPHIC] [TIFF OMITTED] T6411.069
    
    [GRAPHIC] [TIFF OMITTED] T6411.070
    
    [GRAPHIC] [TIFF OMITTED] T6411.071
    
    [GRAPHIC] [TIFF OMITTED] T6411.072
    
    [GRAPHIC] [TIFF OMITTED] T6411.073
    
    Chairman Tom Davis. Thank you very much.
    And, Mr. Richert, Ms. Goldberg, we will get back to you 
after--why don't we take about a half hour recess, allow you to 
get something to eat, and we will come back. Thank you very 
much.
    The hearing is in recess.
    [Recess.]
    Mr. Schrock [assuming Chair]. Thank you all for indulging 
us. We are victims to these bells, and when they go off, you 
have to go, because if you don't vote, 2 years hence somebody 
will say he didn't vote. So I want to thank you all again.
    Mr. DuMont, before we start, is your compound in Santa 
Clara County?
    Mr. DuMont. I am sorry?
    Mr. Schrock. Is your head office complex in Santa Clara 
County, CA?
    Mr. DuMont. We are in Silicon Valley in San Jose.
    Mr. Schrock. San Jose.
    Mr. DuMont. Right next to Santa Clara.
    Mr. Schrock. Did you take an old campus and convert it, is 
that where you are?
    Mr. DuMont. Yes. We are down Tasmine Boulevard. We started 
a number of years ago with a very clever scheme of building 
buildings and calling them A, B, C, D, not recognizing that 
when you get beyond 26 buildings it becomes challenging. So we 
are now up to about Z+25.
    Mr. Schrock. I think I have been there. I think I know 
where you are.
    Mr. Richert, thank you for your patience, and the floor is 
yours.
    Mr. Richert. Just to clarify, I think that it was Sun that 
developed the campus that you are talking about, the old 
development mental hospital.
    Mr. Schrock. Yes. OK. It was a mental hospital.
    Mr. Richert. It was appropriate for our organization.
    Mr. Schrock. Is that right? Your words, not mine. It is 
amazing what you did with that campus.
    Mr. Richert. Thank you.
    Mr. Schrock. Just amazing. That is where my parents live, 
and my dad would drag me through there for years while you were 
constructing it, and when it was done it was just amazing. Good 
use of an old property.
    Now that we are done with that, the floor is yours.
    Mr. Richert. Thank you.
    First of all, I would like to say that in all the comments 
that have preceded mine, clearly the Government and various 
agencies have a very good idea, a good grasp of the benefits of 
telework programs, as well as the challenges, so I am not going 
to repeat those now. I will just say that we have a very broad 
implementation, so I am going to make several comments based on 
that broad implementation.
    To give you an idea of the breadth of the implementation so 
far at Sun, we have 43 percent of our work force who are what 
we call flexible or home-based workers. And when I say 43 
percent, that is the number of people who have given up an 
office of their own so that they work from home or they work 
from multiple locations around the world, really, anywhere that 
they want to work. We hope that will go up to 58 percent in 
this coming year.
    So there are several comments I wanted to make just based 
on what the discussions this morning were. I absolutely agree 
with Steve DuMont's recommendation that if it is as all 
possible to change the policy wording from identifying eligible 
employees to identifying ineligible employees, I think you will 
have much better luck in gaining participation. At Sun, 100 
percent of Sun's employees are, in this terminology, eligible. 
But then what we have built is a suitability assessment tool, 
essentially, a Web-based, portal-based assessment tool so that 
any employee can go in, assess his or her ability, express 
their willingness and preferences, analyze their support, 
whether from a technology perspective or management 
perspective, and basically analyze whether they are suitable 
for such an arrangement and the scope of that arrangement.
    I will say that the vast majority of people, much as has 
been stated here earlier, choose to do this arrangement and 
work from home 1 to 2 days a week. I think that is very 
consistent with what has been stated here earlier, a smaller 
percentage working primarily from home 3 to 5 days per week. 
And I will also say, though, the key to all this is it is not 
only a home to primary location thing, it is a Sun location to 
Sun location phenomenon as well. So, in other words, if you are 
a flexible employee at Sun, you can work literally from 
anywhere, from any Sun location, from home. We do have drop-in 
locations because there are employees who simply cannot work 
from home because of various circumstances. Remember, we are 
talking about a worldwide program, so there are some situations 
where that is just not practical, and yet they want the 
advantages of telework.
    The second point I would like to make in response to 
questions about--matter of fact, I think, Mr. Schrock, you 
brought up the questions of technology security. Clearly, Sun 
is very concerned about that, and in response to that Sun has 
provided two primary ways to connect to its network. One is a 
way in which I think probably many of the Federal agencies do, 
as a matter of fact, we use Cisco technology to do it, it is 
VPN technology, virtual private network. So if you have what is 
called in the industry a fat client, which is a laptop or a PC, 
the way you could gain access to the network is through VPN.
    But a much more secure way, and where we are headed for all 
of Sun's employees, and I know that the Department of Defense 
is beginning to use it as well, and other governmental 
agencies, is what we call a thin client technology, and the 
product line is what we call Sunrays. But the beauty of Sunrays 
is that there is additional security through a smart card, in 
our case it is a java-based card, which identifies its holder 
on the network, and then, of course, all the applications, all 
the information, all the data resides in the data center, not 
on the device. So if somebody steals the device, if it is lost, 
it is of no circumstance.
    The third thing I would just like to point out or suggest 
is around manager resistance. The primary thing we started 
with, which was enormously useful, was collecting data on work 
and work practices. Managers who believe that they need to see 
their employees all the time, and there are managers who 
believe that, are surprised when they realize that in fact 
today they are not seeing their employees all the time, that 
today employees are doing what they need to do to get their 
work done, and the way to demonstrate that is through a 
rigorous program of data collection on work and work practices 
and work profiling.
    And final comment is Mr. Davis mentioned the importance of 
group affiliation. We absolutely agree; it simply takes some 
new techniques, some new discipline, some new skills to assure 
that group affiliation is maintained.
    Thank you.
    [The prepared statement of Mr. Richert follows:]

    [GRAPHIC] [TIFF OMITTED] T6411.074
    
    [GRAPHIC] [TIFF OMITTED] T6411.075
    
    [GRAPHIC] [TIFF OMITTED] T6411.076
    
    [GRAPHIC] [TIFF OMITTED] T6411.077
    
    [GRAPHIC] [TIFF OMITTED] T6411.078
    
    [GRAPHIC] [TIFF OMITTED] T6411.079
    
    [GRAPHIC] [TIFF OMITTED] T6411.080
    
    [GRAPHIC] [TIFF OMITTED] T6411.081
    
    [GRAPHIC] [TIFF OMITTED] T6411.082
    
    Mr. Schrock. Thank you very much.
    And all the way from Fairfax County, Ms. Goldberg. Thank 
you for your patience, and the floor is yours.
    Ms. Goldberg. Thank you for the opportunity to be here. I 
want to mention that Chairman Davis supported telework early on 
when he was chair of the Fairfax County Board of Supervisors, 
and he continues to do so today, and we are all very, very 
grateful for that.
    Given all the testimony, and being last, but not least, I 
want to focus on three points from my written statement. 
Fairfax County Government, first of all, think about the scale 
here. We are talking about 11,000 permanent employees. We did 
exactly what has been discussed today, and it worked for us. We 
determined who wouldn't be eligible; and it was never who, it 
was the kind of work, what kind of work wouldn't fit telework. 
Then we did develop an assessment tool so people could look and 
see whether they actually did fit the other category. We 
determined that there were at least 5,000 jobs. We wanted to 
hit 20 percent of those 5,000.
    But backing up a bit, let me tell you what I want to focus 
on. We followed the Federal Government's lead 10 years ago, and 
it sounds today as though we are still very much in concert 
with you and following as well.
    I also want to mention a couple of our perspectives on the 
challenges we still face. We are like a lot of employers. We 
did a pilot program, very small, 50 employees, 14 different 
agencies. Even that small pilot in 1 year saved 180,000 
commuting miles--remember, everyone is in this region--and 
6,000 commuting hours. When we hit our goal of 1,000 
teleworkers, 20 percent of the 1,000--and that is just an 
interim goal--we are going to be saving almost 1.8 million 
driving miles, and it factors out to something like 800,000 
pounds of pollutants removed from the air. We also saw 
measurable productivity increases, and that managers and 
teleworkers were really satisfied with the arrangement.
    We did start an expansion campaign, as the Federal 
Government has done, that relied on marketing and training. 
That was also mentioned today. We tried everything; Web 
presence, face-to-face. I mean, it truly was marketing to all 
employees, as well as training for those that would be 
potential teleworkers and their supervisors. It really paid 
off. We had less than 150 teleworkers when we started the 
expansion program in January 2002. By October 2003 we had 550, 
and the latest report is 729. Now, it is all scale; remember we 
are much smaller, but we are really getting growth in telework. 
We have had over a 400 percent growth since January 2002. So 
Fairfax is very close to its goal. They will reach their goal, 
they will exceed their goal, and they will continue to grow 
telework.
    Some of the challenges: support from the top of the 
organization is absolutely essential. That said, just because 
it is there doesn't mean everybody really believes it. It isn't 
enough to make the success happen; it just isn't enough. So 
people have talked about incentives as well as maybe even 
penalties. We would rather stick to the incentive side.
    The devil is in the details of taking top-level 
pronouncements and support and advocacy, and translating it 
into operations. It really takes persistence. Sometimes we 
thought it was a really hard sell when it seemed like such a 
logical thing to do and such a positive thing to do. But I 
can't emphasize enough that you have just got to stick with it; 
you have to stay on message. What you are trying to do is reach 
critical mass so that telework can become as ordinary as a 
compressed work week. I am old enough to remember 20 years ago 
when a compressed work week was heretical. It was scary; people 
weren't going to really work those extra hours when the 
supervisor wasn't there to watch them. We are really having the 
same dialog, it is just focused in a different area.
    Managers are a key constituency, and we view them as a 
constituency. They need support. If they haven't managed a 
distributed work force, then they need support to be able to do 
it. Our police officers and library people and social service 
people got it because they manage a distributed work force. So 
they were quick to identify jobs and tasks that could be done. 
Even though you wouldn't necessarily think public safety could 
be included, but in fact there are jobs in public safety that 
can be included. So we really do want to help them find the 
ways to do the measuring and reporting that is necessary. And 
essentially that question: ``how do I know they are working if 
I am the supervisor, how do I know they are working if I can't 
see them?'' And rhetorically, but honestly, the answer is: 
``how do you know they are working when you can see them?'' I 
mean, they can be totally checked out; you don't really know. 
So you have to measure the outcomes.
    I would like to mention, although I will defer to others on 
the panel about this, but technology is a challenge. Most of 
the people that telework are not technical people; they know 
how to do certain things, that it is different when they are 
working without tech support. The technology can be uneven. 
There are wonderful things out there; they cost money. Also, 
management isn't always aware of how to use even what they 
have. Fairfax County uses a thin client, as you were 
discussing. In other words, the data for security is residing 
on the computers in the county's network, in its area. People 
are--it is almost like back to the future, they are using a 
dumb terminal to get into those data; and that definitely 
works. We are finding--and it wasn't mentioned much today, 
telecommunications is still a challenge. Everybody doesn't have 
a cell phone. We can't afford cell phones for everybody. We 
need to keep phone numbers private and we need ways to handle 
long-distance calls and so forth. So we are still working on 
that.
    And last, no matter how easy and attractive you make this 
arrangement, some people don't want to do it. And they need to 
be able to combine it with compressed schedules and also with 
options for vanpooling and carpooling so that we can still 
address those traffic issues. Fairfax is making progress, and 
we will continue to do so.
    [The prepared statement of Ms. Goldberg follows:]

    [GRAPHIC] [TIFF OMITTED] T6411.083
    
    [GRAPHIC] [TIFF OMITTED] T6411.084
    
    [GRAPHIC] [TIFF OMITTED] T6411.085
    
    [GRAPHIC] [TIFF OMITTED] T6411.086
    
    [GRAPHIC] [TIFF OMITTED] T6411.087
    
    [GRAPHIC] [TIFF OMITTED] T6411.088
    
    [GRAPHIC] [TIFF OMITTED] T6411.089
    
    [GRAPHIC] [TIFF OMITTED] T6411.090
    
    Mr. Schrock. Thank you. I can be away from the office, but 
I am not away from the office when I have this. And the miles 
you said they save, especially in a gridlock area like Fairfax 
County, it is worth it from that standpoint alone. And any time 
there is change, no matter what organization it is in, people 
are reluctant, especially government. Nobody trusts government, 
local, State, or Federal, and when they think they are doing 
something for you to help, you are telling them you are helping 
them, it takes a long, long time to get people on board; but 
they will. And if industry does it and it works, I think the 
Government will get on board at some point.
    Thank you very much.
    Ms. Gardiner, of the 92 percent of employees that telework, 
can you describe the frequency to which TIGTA employees 
participate?
    Ms. Gardiner. Yes. We have what we call the four levels, 
and so people who telecommute 4 to 5 days a week, that is 112 
people, that is about 13 percent; for people who do it 2 to 3 
days as week, that is 217 people, 25 percent; limited is just 
the 1-day, that is 61 people; and then episodic is 397. So 1 or 
more days a week is 390 people; the episodic has 397.
    Mr. Schrock. Your Atlanta office participates in this 
program, but what other locations do you have that are 
participating? Is this a regional issue? I would be curious to 
know where else they are participating.
    Ms. Gardiner. Actually, that is our total staff. We 
telework all across the country. We have more than 70 offices 
nationwide. I brought up the Atlanta office because that was 
one where they really bought into it more than most cities. We 
had a large presence there because IRS had previously had a 
large regional office and a service center and district offices 
there. We had a lot of folks in those offices, and since they 
were teleworking so frequently, we would find that the office 
space just was not utilized, that people would all the time be 
complaining, you know, I went down to visit and there was 
nobody there but two people. So that is where we decided to 
experiment with the hoteling, where we share workstations and 
people reserve them. So we were able to turn back 50 percent of 
the space in just one of the offices and reduce the number of 
workstations. That has worked very effectively.
    Mr. Schrock. If you were trying to sell this program to 
other agencies, what would be your pitch? And, by the way, your 
agency should be commended for the incredible results you have 
in making this thing work. But how would you pitch this?
    Ms. Gardiner. That it really does work; that it does 
improve morale, it does improve employee productivity, it saves 
money. It actually creates better managers, too. The points 
that the other panel members have said, and I believe are true. 
That just because somebody is sitting in front of you doesn't 
mean anything, and that is what we have been trying to get 
people away from that mentality.
    Now, I will say that the occupations that the people in our 
office are in, auditors, investigators, data programmers, we 
know what they are doing, we know about how long it should 
take. We can very easily measure productivity and whether they 
are doing what they are supposed to be doing. So whether they 
are sitting at a desk in front of us or they are traveling or 
they are in a hotel or they are at home or in a Starbucks, it 
really doesn't matter as long as they produce results.
    Mr. Schrock. Scott, thank you for mentioning the Herbert 
Bateman Center and, I guess as a way of a plug, the Herbert 
Bateman Education Center is in the Chincoteague Wildlife 
Reserve, and it absolutely has to be the most incredible 
education center of its kind in the world, and I think it is so 
stated; it is just incredible.
    So if you are thinking about a vacation this summer, might 
I suggest the eastern shore of Virginia and Chincoteague. The 
folks in Chincoteague and the eastern shore will love that, I 
can assure you.
    Scott, you explained that the nature of many of the 
Interior positions makes telework impossible, but even the rate 
of those who can participate is fairly low. So how does your 
department determine what employees are eligible to telework?
    Mr. DuMont. Frankly, Mr. Schrock, that has been a problem. 
We have largely left it up to our bureaus, our eight bureaus, 
Park Service, Fish and Wildlife, Geological Survey, and so on, 
to come up with their own policy and their own criteria up 
until now. But we have noticed, in looking at the results from 
one bureau to another, there are some really obvious anomalies. 
So that is one reason why we are coming up with the 
departmental policy and trying to get more consistency to try 
to get people to apply definitions in a common way, and we will 
have that in place end of September, early October.
    Mr. Schrock. It is clear the nature of Interior work is you 
are out in the wild, which is a wonderful thing, but you still 
have a big old building down here on Constitution, I think it 
is. I would think some of those people would relish the thought 
of not coming into this gridlock everyday.
    Mr. DuMont. You are right, Mr. Schrock. In fact, I suspect 
it is Interior employees, main Interior building employees or 
we have two or three other office buildings where we have space 
here in downtown D.C. that are disproportionately represented 
among the 2,000 or so of our employees who in fact are 
teleworking. Just walking down the hallways talking to people 
in the normal course of my daily work experience, I hear all 
the time that Joe is teleworking today from home, so it seems 
to be, for the Washington, DC. employees at least, not a 
particularly unusual situation.
    Mr. Schrock. Mr. Mihm, what recommendations would the GAO 
suggest to better encourage folks to telework?
    Mr. Mihm. I think one of the things that is most important, 
and Director James was pointing to this, was making sure that 
we have a good understanding of exactly what the barriers are, 
and she said we have that because of the surveys that she has 
done, as well as kind of other work that we have all been 
discussing here today, and then train exactly off of that with 
a real leading practice or best practice approach. As you know, 
Mr. Chairman, they have the Chief Human Capital Officers 
Council, which is, in our view, just a great vehicle that she 
could be using with her kind of parts or her colleagues in each 
of the executive branch agencies to identify leading practice, 
identify very specific cases where agencies have said we have a 
barrier, have been able to overcome it, have cost savings and 
all the rest, and then show that to agencies. Nothing works 
better in Washington than being able to show a specific 
example.
    Second thing that I think they ought to do, and we spent a 
lot of time on the practices that are key to successful 
programs, and they have already distributed those to agencies 
as well as GSA, is to continue to train off of those and show 
that you do need to have a good performance management system 
in place, you do need to be thinking of a whole series of 
issues that are policy-related and support-related and the 
rest.
    And then third and what I think is very important, if what 
gets measured gets done in most organizations, here in 
Washington what gets overseen gets done. And so congressional 
oversight, this hearing will send clear messages back to 
agencies.
    Mr. Schrock. We hope.
    Mr. Mihm. Just simple conversations in the other context 
of, oh, by the way, how are we doing at telework at your 
agency. That is the type of thing that goes from the secretary 
and filters right down.
    So I think those are really the three keys.
    Mr. Schrock. If you had to recommend to Congress about a 
new legislation or new initiatives, what would you recommend?
    Mr. Mihm. At this point it is not so much that we see the 
need for new legislation. I mean, there may be the need for 
that eventually. We think that there is so much that agencies 
need to do with the current authorities that they have been 
given. Congress has sent a message on what we want to have done 
in terms of eligibility for telework. There really needs to be 
the need.
    Now, I know that Mr. Danny Davis is considering legislation 
or dropping legislation that would be looking at considering 
additional pilot programs. Something like that is certainly 
worthy of consideration, but in terms of broad, across-the-
board additional guidance to agencies, you have said what you 
need to say; it is now up to the agencies to step up.
    Mr. Schrock. I would certainly think the more of these 
hearings you have, the more people start to get the message, 
hey, Congress isn't going to ease up on this thing, so, 
frankly, probably new legislation isn't necessary.
    Mr. Mihm. Absolutely. And, sir, as Carol was saying, there 
comes a point of critical mass or the tipping point of where an 
organization gets it, where they see and managers see that it 
is possible to manage, that you don't lose control, that work 
gets done and productivity increases, and then that is where 
you get to the launch point. I don't think we are there yet 
governmentwide. We may be approaching it, but I think sharing 
some best practices and training very specifically off of some 
of the weaknesses is exactly the way to go.
    Mr. Schrock. Ms. Gardiner's organization is the key 
organization, they are the showcase, I would think.
    Mr. Mihm. We enjoyed the opportunity during the break. I 
was pumping her for information on episodic, because it is 
something that we are just entering into at GAO.
    Mr. Schrock. So it was good we were gone for a half hour.
    Mr. Mihm. Well, I would never say that to a Member, sir.
    Mr. Schrock. No problem.
    Dr. Kane, again, thank you for your indulgence, and thanks 
for bringing my friend, Tim Hugo, with you; appreciate that. 
You have discussed how the current commercial technology has 
changed, the type of work that can now be done by using 
telework. Can you give us some specific examples of that 
technology and what it makes possible?
    Mr. Kane. I think a good example was a recent clip on 
Channel 4 here in Washington where, instead of just sort of 
workers connecting simply, we had basically Leesburg, VA, 
connected to Stockholm, Sweden, actually out of Stockholm. It 
was all in realtime; we were able to see one another, we were 
able to sort of share a common document. So this whole idea of 
sort of having face time----
    Mr. Schrock. That is a teletechnet approach, isn't it?
    Mr. Kane. Yes. And it was all commercially available 
technology. It was all over the public Internet, so there was 
no additional telecommunications cost, and it was really a 
combination of that desktop application as well as Internet 
access. That, to me, sir, is one of the points that I think a 
lot of how we are thinking of telecommuting is sort of like, 
well, I can be remote and sort of maybe do email or access a 
file, but what we see at the Consortium is the technology now 
is so rich that the work experience is very much as if I were 
sitting here looking at you directly and talking with you 
directly.
    Mr. Schrock. It is amazing. The Navy does a lot of that 
because the commanders sitting in Norfolk can see their people 
on the ships at sea and have meetings. It is just incredible.
    Mr. Kane. Exactly.
    Mr. Schrock. I guess we need more and more of that inside 
the Beltway here.
    Mr. DuMont, thanks for coming from California. Do you live 
in California?
    Mr. DuMont. No, sir. I have my office in California. 
Depending on the depth of the snow in northern Utah, I either 
telecommute from northern Utah or from Chicago. So it is 
between 700 and 2,000 miles, and, once again, I have no real 
necessity to be in my office in California, which is a shared 
conference room because it only has one file in it.
    Mr. Schrock. I set myself up for that, didn't I? So you 
telecommute.
    Mr. DuMont. I telecommute, spending half of my time out of 
the country as well.
    Mr. Schrock. In a society that is very concerned with 
terrorist attacks, as we should be, are we certain that 
confidential information like Social Security numbers, military 
secrets, etc., is not vulnerable to hacking through these 
telework systems?
    Mr. DuMont. We can be reasonably assured of that, although 
I think it is conservative to say that there is probably no 
network in the world that is totally non-vulnerable. But in 
reality what we now have is technology which enables us to 
connect thousands of points--i.e., home residences--through to 
networks with the same degree of security that we would have if 
we put all of this into a single building. So the answer is 
yes. We can do encryption, and the new exciting thing that we 
are discovering is that we now have the ability to put low-cost 
technology in these thousands of locations that enables 
encryption of video and data and voice traffic simultaneously 
with high levels of security.
    Mr. Schrock. Just like the military, I guess. How integral 
is telework to your organization's continuity of operations 
plans?
    Mr. DuMont. We automatically inherit a high level of 
continuity of operations. When you think about the fact that 
over 90 percent of all of our employees, that is 34,000 people 
distributed across approximately 100 countries, that over 90 
percent of those individuals are fully equipped with broadband 
connectivity in their homes, if we were suddenly of all of our 
office facilities, we would still find that we have the vast 
overwhelming majority of people in a position where they can 
continue to function as if nothing had happened.
    Mr. Schrock. I have heard stories that Osama bin Laden, 
although he rides horses, can communicate with one of these and 
a laptop; he needs nothing more. Same kind of concept, except 
you are the good guy, I want to make that real clear.
    Mr. DuMont. Absolutely. I think the same applies to good 
guys and bad guys, that those that want to telecommute can. And 
I think the point is with the newest technology we are in fact 
able to address this socialization issue, because in our new 
technology package that we will be rolling out this fall to 
essentially all employees worldwide, they will have, and every 
employee today has a laptop, but they will have that connected 
with broadband connectivity so it will respond very rapidly; 
they will have a color high resolution video conferencing 
telephone available to them, so when you just make a telephone 
call, dial someone's number on the assumption that they have 
the same equipment, you will automatically have a video 
conference; and all of the information with regard to data 
bases is instantaneously available and as manipulatable as if 
you were in an office location somewhere. So essentially it 
becomes one and the same.
    Mr. Schrock. It kind of follows me to the last question I 
was going to ask you. What additional technology would you like 
to incorporate into your telework programs in the future?
    Mr. DuMont. Well, I think the big jump that we are talking 
about is the whole concept of video for e-learning, for 
interaction, as well as video in what we call executive 
communication context, so that people can download those video 
modules whenever they are available to view them.
    Mr. Schrock. Mr. Richert, thank you for being patient, and 
you really do have a magnificent campus. Why anybody would want 
to telework away from there is a mystery to me, but that is 
what this hearing is all about.
    How do you determine the productivity of an employee who 
works through the iWork program?
    Mr. Richert. How do we determine the productivity? It is 
very difficult to directly measure productivity; I think 
everybody would tell you that and would say that. So we do a 
variety of things. First of all, on an individual basis, the 
primary thing is setting goals, setting objectives, and 
measuring people's results against those objectives in the 
aggregate so that when we, as a program office, are looking at 
the effects on productivity, we look at the aggregate of 
performance reviews, we look at voluntary turnover, we look at 
indicators of productivity or impacts on productivity. Until 
some genius figures out how to measure directly the 
productivity of knowledge workers, we look at the 
intermediates.
    Mr. Schrock. Which is kind of interesting. Just because you 
are in an office somewhere being watched over, sometimes can 
make you less productive.
    Mr. Richert. Right.
    Mr. Schrock. When I was in the Navy, I was stationed in 
Florida one time, and there was a lieutenant colonel in the 
Marine Corps who would always tell the boss I am leaving. He 
would say, where are you going? He would say I am going to 
coordinate. And he got by with it. And he got more done, 
whatever he did, out there somewhere than if he was sitting in 
the office twiddling his thumbs, waiting for 5 to come. So 
being out there sometimes makes you more aware of what is going 
on in the real world than if you sit in a cloistered office 
somewhere. So it makes a lot of sense.
    Mr. Richert. Absolutely. The point is, and all of our data 
shows it, is that a very large percentage of our work force is 
on the move in one way or another, working in multiple venues 
in one way or another. It is simply better if we support them 
in doing that, which is what the iWork program is about.
    Mr. Schrock. I agree.
    Ms. Goldberg, I have one final question. It sounds like you 
are excited about what Fairfax is doing, and obviously it is 
working. And if it works for Fairfax, that should be an example 
for everybody. How would you recommend Congress motivate 
agencies to telework? The big stick, huh?
    Ms. Goldberg. Well, remember I said that top level support 
is essential, but it is not enough. And I think what Chris was 
saying is so true: the information is out there, but 
departments, agencies, and individual managers and employees 
who are potential teleworkers really do need that hand-holding, 
whether it is on the technology piece, or how they are going to 
record their productivity; and we have done it in very, very 
simple ways. I think the focus needs to be on the translation 
piece, from the policy, to the actual implementation, to 
operations. So it has to be somebody's job and somebody needs 
to be accountable for it.
    Mr. Schrock. If every Federal agency would let most of 
their employees telework on Fridays, it would sure help me get 
home a lot quicker to Virginia Beach, I can assure you. Fridays 
are a nightmare.
    I appreciate your being here, all of you. It is very 
important to hear what you all have to say. This is a very 
important topic that is going to continually be revisited, 
because it is clearly the wave of the future, and when you have 
something that is so far-reaching, sometimes people can't 
comprehend and don't want to participate. But the testimony you 
have given us here and the dialog we have had back and forth 
has been very important. I appreciate your all coming, and we 
may see you here again. Thank you very much.
    This hearing is adjourned.
    [Whereupon, at 12:05 p.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
    [The prepared statements of Hon. Elijah E. Cummings, Hon. 
Dennis J. Kucinich, and additional information submitted for 
the hearing record follow:]

[GRAPHIC] [TIFF OMITTED] T6411.091

[GRAPHIC] [TIFF OMITTED] T6411.092

[GRAPHIC] [TIFF OMITTED] T6411.093

[GRAPHIC] [TIFF OMITTED] T6411.094

[GRAPHIC] [TIFF OMITTED] T6411.095

[GRAPHIC] [TIFF OMITTED] T6411.096

[GRAPHIC] [TIFF OMITTED] T6411.097

[GRAPHIC] [TIFF OMITTED] T6411.098

[GRAPHIC] [TIFF OMITTED] T6411.099

[GRAPHIC] [TIFF OMITTED] T6411.100

[GRAPHIC] [TIFF OMITTED] T6411.101

[GRAPHIC] [TIFF OMITTED] T6411.102

[GRAPHIC] [TIFF OMITTED] T6411.103

[GRAPHIC] [TIFF OMITTED] T6411.104

[GRAPHIC] [TIFF OMITTED] T6411.105

[GRAPHIC] [TIFF OMITTED] T6411.106

[GRAPHIC] [TIFF OMITTED] T6411.107

[GRAPHIC] [TIFF OMITTED] T6411.108

[GRAPHIC] [TIFF OMITTED] T6411.109

[GRAPHIC] [TIFF OMITTED] T6411.110

[GRAPHIC] [TIFF OMITTED] T6411.111

[GRAPHIC] [TIFF OMITTED] T6411.112

[GRAPHIC] [TIFF OMITTED] T6411.113

                                 <all>

</pre></body></html>
